Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
March 10, 2020

Scott S. Harris
Clerk of the Court
(202) 479-3011

Mr. Eric R. Olson
Solicitor General
Office of the Attorney General
1300 Broadway, 10th Floor
Denver, CO 80203
Mr. L. Lawrence Lessig
Equal Citizens
12 Eliot Street
Cambridge, Massachusetts 02138
Re: No. 19-518, Colorado Department of State v. Micheal Baca, et al.
Dear Counsel:
I am writing to inform the parties that Justice Sotomayor has determined
that she will not continue to participate in this case. The Justice believes that her
impartiality might reasonably be questioned due to her friendship with respondent
Polly Baca. See 28 U.S.C. § 455(a). The initial conflict check conducted in Justice
Sotomayor’s Chambers did not identify this potential conflict.
Justice Sotomayor will continue to participate in Chiafalo v. Washington, No.
19-465.
Sincerely yours,

Scott S. Harris
Clerk of the Court
cc: Noah G. Purcell

